   Office of Inspector General
       Audit Report


    FHWA’S FEDERAL LANDS HIGHWAY
 PROGRAM LACKS ADEQUATE PROCESSES
FOR THOROUGHLY EVALUATING CONTRACT
              BID PRICES
        Federal Highway Administration
        Office of Federal Lands Highway


         Report Number: ZA-2015-002
         Date Issued: October 9, 2014
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FHWA’s Federal Lands Highway                                             Date:    October 9, 2014
           Program Lacks Adequate Processes for
           Thoroughly Evaluating Contract Bid Prices
           Federal Highway Administration
           Report No. ZA-2015-002


  From:    Mary Kay Langan-Feirson                                                       Reply to
                                                                                         Attn. of:   JA-60
           Assistant Inspector General for Acquisition and
           Procurement Audits

    To:    Federal Highway Administrator

           The Federal Highway Administration (FHWA) is responsible for all Federal
           highway programs. Its Office of Federal Lands Highway (FLH) provides
           resources and technical assistance for public roads on Federal and tribal lands.
           FLH relies mainly on sealed bid contracting 1 to award contracts for its road
           projects. Between October 2012 and September 2013, FLH awarded $305 million
           in fixed-price contracts—53 percent of FHWA’s total fixed-price contracts.

           Under the Federal Acquisition Regulation (FAR) provisions for sealed bidding,
           contracting officers must determine whether offered prices are fair and reasonable
           prior to awarding contracts, 2 and may reject bids if they determine that either total
           bid prices or line item prices are unreasonable. 3 Also, while intended for use by
           State transportation agencies, FHWA and the American Association of State
           Highway and Transportation Officials’ (AASHTO) 4 have established guidance
           that provides best practices for evaluating bid prices (see tables 1 and 2). Both
           FHWA’s and AASHTO’s guidance call for establishing written bid review
           1
             Per the FAR, sealed bidding is a competitive contracting method in which agencies evaluate submitted bids without
           discussion. Contracts resulting from sealed bidding are fixed price contracts.
           2
             Per FAR 14.408-2, in each case, the determination shall be made in the light of all prevailing circumstances.
           Contracting officers must also determine if prospective contractors are responsible—meaning qualified, capable, and
           eligible for performing the contract, and if submitted bids are responsive—meaning the bids comply in all material
           respects with the solicitation, to be considered for award. (FAR 9.104-1 and 14.301(a))
           3
             FAR 14.404-2.
           4
             AASHTO is a nonprofit, nonpartisan association that serves as a liaison between State departments of transportation
           and the Federal Government. It sets technical standards for all phases of highway system development, including
           design and construction.
                                                                                                                        2


procedures and conducting thorough bid evaluations to help determine whether to
award the contract or reject the bids.

Price reasonableness determinations provide agency contracting personnel with
information for evaluating bid proposals and promoting competition for Federal
contracts. Given the importance of price reasonableness and FLH’s sizeable
contract awards, our objective for this self-initiated audit was to determine
whether FHWA’s policies, procedures, and practices meet Federal requirements
for ensuring price reasonableness for FLH’s fixed price contracts.

We conducted this audit between April 2013 and August 2014 in accordance with
generally accepted Government auditing standards. To conduct our work, we
assessed FLH’s compliance with Federal regulations to ensure price
reasonableness in awarding fixed price contracts under sealed bidding, including
its procedures and practices for evaluating bids. Specifically, we reviewed Federal
requirements, FHWA’s policies and procedures, and best practices. From a
universe of 37 contract files, we analyzed 13 randomly selected contract files and
interviewed FHWA and FLH personnel. We conducted our work in Washington,
DC, and FLH’s Division Offices. See exhibit A for further details on our scope
and methodology.

RESULTS IN BRIEF

FHWA lacks adequate procedures and practices to ensure that contracting
personnel thoroughly evaluate bid prices for FLH’s contracts. Such evaluations
may be needed to meet FAR requirements, even when multiple competitive bids
are received for a contract, if there is evidence that the price of the otherwise
successful bidder is unreasonable. FHWA received multiple bids for all 13 of the
FLH contracts we reviewed—12 contracts had 3 or more bidders; and on average
the sample had nearly 7 bidders per contract. However, for all 13 contracts we
reviewed, the winning low bids 5 differed from the agency estimates—also known
as the engineer’s estimates 6—by as much as 20 percent above the estimate to as
low as 39 percent below. Under the FAR, contracting officers must determine
whether bid prices are reasonable, and may use various techniques to evaluate
bids. FHWA’s and AASHTO’s guidance call for establishing written procedures
for determining whether to award contracts or re-advertise projects, 7 and
conducting thorough bid evaluations when low bids differ significantly from
agency estimates. FLH does not have bid evaluation procedures to assist its
5
  The lowest bid price offered for a contract during a sealed bid competition, from a bidder that is determined to be both
responsive and responsible.
6
  The engineer’s estimate (1) reflects the amount that the agency considers fair and reasonable and is willing to pay;
(2) serves as a benchmark for analyzing bids; and (3) should provide sufficient detail to permit an effective review and
comparison of bids.
7
  Re-advertising involves rejecting submitted bids and re-competing the project.
                                                                                                                      3


Divisions’ contracting personnel in making contract award decisions. In the
absence of policies and procedures from FLH, the Agency’s three Divisions use
informal practices for determining when and how to conduct bid evaluations.
However, we found that the Divisions’ approaches did not ensure that bids were
thoroughly analyzed when determining price reasonableness. For example, one
contract was awarded at a winning bid price 20 percent higher than the agency
estimate, but we found no evidence that personnel conducted bid evaluations.

We are making recommendations to assist FHWA in ensuring that FLH contracting
personnel thoroughly evaluate bid prices for FLH’s fixed price contracts.

BACKGROUND

FHWA supports State and local governments in the design, construction, and
maintenance of the Nation’s highways through its Federal Aid Highway Program, 8
and provides support for public roads on Federal and tribal lands through FLH.
FLH reports to FHWA’s Administrator and consists of a Headquarters Office and
three Division Offices—Eastern Federal Lands, Central Federal Lands, and
Western Federal Lands.

The FAR calls for agencies to ensure they acquire supplies and services at fair and
reasonable prices. Under the FAR’s provisions on sealed bidding, contracting
officers may use various price analysis techniques 9 to determine whether bid
prices are fair and reasonable, 10 including adequate price competition. 11

FHWA has established contracting guidance 12 for State transportation agencies
under its Federal-aid Highway Program. In a prior audit, we highlighted FHWA’s
guidelines on evaluating bids to determine whether to award a contract or reject
bids. 13 These guidelines recommend conducting thorough analyses prior to making
award decisions. See table 1 for more examples of FHWA’s recommended
practices.
8
  FHWA is responsible for overseeing State transportation agencies use of Federal-aid funds and providing assurance
that funds are expended in a manner consistent with applicable Federal laws and regulations. Under the Federal-aid
Highway Program, State transportation agencies use both Federal and State or local funds to contract with vendors to
build intra-State roads and bridges.
9
   Price analysis employs evaluation techniques to examine proposed prices without evaluating their separate cost
elements and proposed profit.
10
   FAR 15.404-1(b)(2) as incorporated under FAR 14.408-2(a)).
11
   Per FAR 15.403-1(c)(1), as incorporated under FAR 14.408-2 and 15.404-1, a price is based on adequate competition
if (1) two or more bids are received; (2) the award is made to the offeror whose proposal represents the best value (see
FAR 2.101) when price is a substantial factor in source selection; and (3) there is no finding that the price of the
otherwise successful offeror is unreasonable.
12
    FHWA Guidance: Contract Administration Core Curriculum Participant’s Manual and Reference Guide, 2006;
Guidelines on Preparing Engineer’s Estimate, Bid Reviews, and Evaluation, 2004.
13
    Lessons Learned from ARRA: Improved FHWA Oversight Can Enhance States’ Use of Federal-Aid Funds, OIG
Report Number ZA-2012-084, April 5, 2012. OIG’s reports are available at www.oig.dot.gov.
                                                                                                                       4


Table 1: Examples of FHWA’s Recommended Practices for
Conducting Bid Reviews under the Federal-aid Program
    Topic                     Recommended Practice

    Bid reviews               Consider factors such as comparisons of total bids and unit bid prices,
                              the distribution or range of bids, and the urgency of the project.

    Agency estimates          Test the accuracy of agency estimates over time. Generally, the
                              agency estimate should be within plus or minus 10 percent of low bids
                              for at least 50 percent of the projects awarded over a given time
                              period.

    Unbalanced                Ensure that bids have not been materially unbalanced in order to take
                    a
    unit bid prices           advantage of errors in the plans or specifications, which may also
                              occur on lump-sum items.

    General                   Develop general guidelines for determining whether to award the
    guidelines                contract or to reject all bids. These guidelines should be tied to the
                              size and scope of the project.

Source: FHWA, Guidelines on Preparing Engineer’s Estimate, Bid Reviews and Evaluation,
2004.
a
  FHWA’s Guidelines do not provide a definition for unbalanced bid prices. According to the FAR, however,
unbalanced pricing exists when, despite an acceptable total price, the price of one or more contract line item is
determined by price analysis to be significantly over or understated. The FAR also states that the Government shall
analyze all offers with separately priced line items to determine if the prices are balanced. If price analysis indicates
that a bid is unbalanced, the Government shall consider whether awarding the contract will result in paying
unreasonably high prices and may reject the bid if the lack of balance poses an unacceptable risk. (FAR 15.404-1(g))


AASHTO’s Practical Guide to Estimating sets guidance for evaluating bids—
including risk indicators, as seen in table 2.
                                                                                          5


Table 2: AASHTO’s Examples of Risk Indicators To Look for
during Bid Price Evaluation

 Risk Factor                     May Indicate                     That May Lead To

 Extremely low prices from one   A problem with the quality of    Future change orders
 bidder while the average of     the bid documents, such as a     that raise total cost
 other bids is near agency       specification error.             significantly.
 estimate
 Low bids typically more than    A shift in market prices, such   Insufficient funding
 10 percent higher than agency   as changing commodity prices,    budgeted for project
 estimate                        or factors that were not         completion.
                                 accounted for in the agency
                                 estimate, such as previously
                                 unidentified permit
                                 requirements.
 Low bids typically more than    A flaw in the project            Future change orders
 15 percent lower than agency    documents, such as               that raise total cost
 estimate                        insufficient or missing pay      significantly.
                                 items.
Source: AASHTO’s Guide to Cost Estimating, 2011.

See exhibit B for an overview of the process for determining price reasonableness
under sealed bidding and FHWA’s suggested factors for consideration in bid
evaluations.

FHWA’S FEDERAL LANDS HIGHWAY PROGRAM LACKS
ADEQUATE PROCESSES FOR MEETING REGULATIONS AND
BEST PRACTICES ON THOROUGHLY EVALUATING CONTRACT
BID PRICES

FHWA does not have adequate policies and procedures for evaluating bid prices
for FLH’s contracts. In the absence of policy from FHWA, FLH has not
established bid evaluation policies and procedures for its Division Offices. As a
result, the Division Offices use informal practices that do not reflect best practices
for ensuring that bids are thoroughly evaluated prior to making award decisions.

FHWA has established sealed bid contracting guidance—which AASHTO cites as
part of its suggested practices—under its Federal-aid Highway Program, but it has
not done so for its FLH program. The guidance from FHWA and AASHTO
provide best practices for bid evaluations and decisions to award contracts or
reject bids. FLH has neither adopted this guidance nor developed policies or
procedures of its own. FLH personnel stated that FHWA’s Federal-aid Program
guidance for bid evaluations and contract awards does not apply to FLH because
per the FAR they are to award contracts to the lowest bidders.
                                                                                                                  6


However, though the FAR calls for awarding contracts to the low-bidder, the FAR
also includes requirements detailing when bids may be rejected and when
adequate price competition may not provide sufficient evidence for price
reasonableness. Specifically, the FAR states that:

• Individual bids may be rejected if the contracting officer determines the bid
  price is unreasonable; 14
• All bids may be rejected and the competition cancelled if the agency head
  determines all bids are unreasonable; 15 and
• Adequate price competition normally establishes price reasonableness when
  there are at least two bidders and if there is no evidence that the price of the
  otherwise successful bidder is unreasonable. 16
Moreover, FHWA and AASHTO guidance support the need to thoroughly
evaluate bids prior to award and suggest that agencies reject unreasonable bids.
Specifically:

• Both FHWA’s and AASHTO’s guidance recommend that agencies (1) follow
  written procedures to determine whether to award a contract or re-advertise the
  project; and (2) conduct thorough evaluations—including bids that are lower
  than agency estimates—to examine factors such as numbers of bids received, 17
  comparisons of bids to agency estimates, 18 and distributions—or ranges—of
  bid prices.
• Per AASHTO’s guidance, bids that differ significantly from agency estimates
  must be carefully evaluated before award decisions are made because they may
  indicate problems with the competition, possible bid rigging or collusion,
  changes in market conditions, issues with bidding documents, or result in final
  project costs that are higher than original award prices (see table 2).

FLH obtained at least two competitive bids on each of the 13 contracts we
reviewed—12 contracts had more than 3 bidders and on average, the sample had
nearly 7 bidders per contract. However, the bids also contained variations that
could pose risks to the Agency’s obtaining reasonable prices according to
FHWA’s and AASHTO’s guidance. As seen in table 3, for all 13 contracts, there
were variations between the winning bids and the agency estimates from as much


14
   FAR 14.404-2.
15
   FAR 14.404-1.
16
   See FAR 2.101, 15.403, and 15.404, as incorporated under FAR 14.408.
17
   According to FHWA’s guidance, while the number of bids received is a measure of bidder interest, the number alone
does not indicate the degree of competition.
18
   Per AASHTO’s guidance, the comparison of low bids to agency estimates should not be used as the sole criteria for
award decisions but as a possible indicator that prices may be unreasonable and that thorough analysis should be
performed.
                                                                                                                 7


as 20 percent above the agency estimate to as low as 39 percent below the agency
estimate.

Table 3: Differences Between Agency Estimates and Bid
Prices for FLH’s Contracts

       OIG            FLH           # of    Percent difference            Percent difference
     contract       division        bids      between agency            between winning bid
     sample #                                    estimate and              and average of all
                                                 winning bid**                  other bids***
        1            Eastern            5                10.50                         -38.36
        2            Eastern            2                    19.47                         -14.76
        3            Eastern            6                    11.91                         -17.93
        4            Eastern           7*                   -19.88                         -25.53
        5            Central          15                    -14.77                         -26.46
        6            Central            9                   -39.25                         -24.32
        7            Central            6                   -21.48                         -29.16
        8            Central            7                   -28.37                         -25.28
        9           Western             7                    20.29                         -19.68
       10           Western             7                     6.84                         -28.62
       11           Western             5                   -22.77                         -23.69
       12           Western             4                     4.54                         -35.78
       13           Western             9                   -15.30                         -17.82
Source: OIG analysis of bid tabulation data from FLH.
*This contract was re-advertised.
**Positive numbers reflect percentages by which a winning bid exceeded agency estimates, while
negative numbers reflect percentages by which winning bids fell below agency estimates.
*** Positive numbers reflects the percentage by which a winning bid exceeded the average of all
other bids, while a negative number reflects the percentage by which a winning bid fell below the
average of all other bids.

FLH personnel told us that additional analysis was not warranted when bids fall
into a normal distribution. 19 However, even when bids are normally distributed,
per AASHTO’s guidance, analyzing the distribution between bidders is important.
Large deviations among bids or between bids and agency estimates signal a need
for agencies to identify and examine contributing factors. For example, under
AASHTO’s guidance, a low bid more than 15 percent lower than the agency
estimate may signal flawed project documents that could result in costly change
orders in the future. Among the 13 contracts we reviewed, we found the following
two contracts that FLH modified due to errors the Agency made in its solicitation
documents:

19
  Normal distribution indicates data points on a “bell curve” grouped around a central value with no bias to either
extreme.
                                                                                                                     8


• One contract was awarded to a vendor whose bid was about 30 percent below
  the agency estimate. In the solicitation documents, Agency staff erroneously
  used cubic feet instead of cubic yards as the unit of measurement for fill
  material. As a result, FLH had to modify the contract to add 1,136 cubic feet of
  material and increase the contract price by $49,984.
• The other contract went to a bid about 15 percent below the agency estimate.
  FLH staff had used an incorrect number of hours in the solicitation, and as a
  result, had to modify the contract to add 1,800 hours and increase the price by
  $208,800. 20

Furthermore, according to AASHTO’s guidance, extremely low prices by one
bidder while the other bidders average near the agency estimate may suggest a
problem with the quality of the bid documents, such as a quantity or specification
error. Six of 13 contracts had winning bids that varied from the average of all other
bids by 25 percent or more.

Lastly, according to AASHTO’s guidance low bids that are more than 10 percent
higher than the agency estimate may point to factors including a shift in market
prices, such as changing commodity prices, or factors that are not accounted for in
the agency estimate, such as unidentified permit requirements (see table 2).
FHWA’s guidance states that when project bids come in higher than the agency
estimate it is generally in the public interest to defer the projects for re-
advertisement. Similarly, AASHTO’s guidance points out that a decision to award
a contract above market value should include a detailed justification and a
demonstration of such a serious need for the work that re-advertising would not be
in the public interest.

As shown in table 4, FLH Divisions’ contracting officials reported using different
informal practices for evaluating bids; and in price determination memoranda,
personnel in each Division described the basis for their price reasonableness
determinations. However, based on review of contract file documents, we found
that personnel largely did not perform all of the practices reported in table 4 or as
documented in their price determination memoranda.




20
  According to the contract file, the contract’s design called for a 3 person crew and a supervisory foreman. Each crew
member would work 900 hours, for a total of 2,700 hours. However, the solicitation document indicated a requirement
for only 900 hours, thus incorrectly requiring just 1 crew person.
                                                                                                            9


Table 4: FLH Divisions’ Reported Practices for Conducting
Bid Evaluations

          FLH             Percent variation            Reported practices for conducting
                                                                                        21
      Division         between low bid and                              bid evaluations
                      agency estimate that
                    triggers bid evaluation
     Central             15 percent above or             •   Ask low bidders to verify
                                      below                  accuracy of their bids.
                                                         •   Compare low bids to second
                                                             and third lowest bids.
                                                         •   Compare low bidders’
                                                             proposed unit prices to agency
                                                             estimates and to those of
                                                             other offerors.

     Eastern                  Does not use a             •   All bids receive analysis.
                            percent threshold            •   Compare low bidders’
                                                             proposed unit prices to agency
                                                             estimates and to those of other
                                                             offerors.
     Western                10 percent above             •   Ask for assistance from other
                                                             FLH personnel to perform
                                                             analysis.
                                                         •   Compare low bidders’
                                                             proposed unit prices to agency
                                                             estimates and to those of other
                                                             offerors.

Source: FLH Divisions’ self-reported bid evaluation thresholds and practices.

Other than recording numbers of bids and the differences between agency
estimates and the lowest (in some cases, also second lowest) bids, we found that
FLH personnel did not thoroughly analyze the bids for the contracts we reviewed.

For all four Eastern Division contract files we reviewed, we found no evidence
that personnel evaluated bids other than the low bidder, although the price
determination memoranda and FLH Division officials (see table 4) indicated that
all bids should have been reviewed. Specifically, while the contracts we reviewed
received multiple bids (see table 3), based on our review of file documentation
Division personnel only looked at the low bidder. Division personnel stated in
price determination memoranda that they based their price reasonableness
determinations on comparisons of competitive prices received and agency
estimates, yet we found that Division personnel only looked at the low bidder and
not all bids received. We also found that personnel did not consistently and
21
  In FHWA’s September 16, 2014 technical comments on our issued draft audit report, FHWA stated that per the
Eastern and Western Federal Lands Highway offices, they also ask low bidders to verify accuracy of their bids.
However, FHWA did not provide evidence to support its assertion.
                                                                                 10


thoroughly follow the practices reported in table 4. For example, while contract
file documents showed that personnel compared the low bidders’ proposed total
and unit prices to the agency estimates, we found that personnel did not compare
the low bidders to other bids received.

Furthermore, we found evidence that Eastern Division personnel awarded two
contracts despite finding significant discrepancies between the low bidders’ line
items and agency estimates.

• One contract had a bid price nearly 20 percent lower than the agency estimate.
  OIG identified 28 line bid items that were over 60 percent higher or lower than
  the agency estimates. However, in file documentation, Division staff stated that
  while they found some prices that were significantly lower and higher, their
  concerns did not prevent them from awarding the contract, but they provided
  no explanation to justify their decision.
• For the other contract, personnel noted in a December 2012 email that 2 bid
  prices were too high based on the limited scope of the project. Personnel also
  flagged 16 line items in the winning bid that were significantly higher or lower
  than the agency estimates (half of the line items were over 100 percent higher
  than the estimates). However, according to a January 2013 memorandum, the
  Division’s project engineer asked the prospective winning bidder to review the
  bid for errors and relied on the bidder’s confirmation that the bid price was
  correct. We found no documentation explaining the Division’s decision to
  proceed with award despite the presence of these discrepancies.

In the Central Division’s price determination memoranda, personnel stated that
their price reasonableness determinations were based on the competitive bids
received but we did not find that all bids were evaluated. For the four Central
Division contract files we reviewed, personnel compared the low bids to the
agency estimates but we found no evidence of unit bid analyses or how the other
bids factored into the price reasonableness determinations, as indicated in the
memoranda and by FLH Division officials. In addition, we found 3 contracts
totaling approximately $22 million that met the Division’s threshold to trigger bid
evaluations but no evidence in the files that personnel compared the low bidders’
proposed total prices to both the agency estimates and the second and third lowest
bidders as reported in table 4. Division personnel only contacted the low bidders to
verify bids.

Western Division personnel also based their price reasonableness determinations
on the competitive bids received, but we again did not find that all bids were
analyzed, as indicated in the Division’s price determination memoranda and as
reported by FLH Division officials to be part of routine practice (see table 4). For
the five Western Division contract files we reviewed, we found no evidence of
                                                                                11


how the other bids factored into the price reasonableness determinations. Four of
the five contracts did not meet the Division’s threshold for conducting bid
evaluations (see table 4). The remaining contract had a winning bid price that was
20 percent higher than the agency estimate, but we found no evidence that
personnel conducted bid evaluations. The contract received four bids—two for
approximately $500,000, and two for approximately $1,000,000. Division
personnel stated that no analysis was performed, but provided no explanation
despite the wide discrepancy in the bids.

CONCLUSION

Proper bid evaluation helps ensure that agencies pay fair and reasonable prices for
goods and services. FHWA’s lack of bid evaluation policies and procedures for
FLH diminishes the usefulness of the Agency’s price reasonableness
determinations for FLH’s contracts. As a result, FLH cannot be sure that it is
getting the best prices possible for its contracts.


RECOMMENDATIONS

We recommend that FHWA take the following actions for its Federal Lands
Highway Program:

1. Develop and implement policies and procedures instructing that FAR
   requirements, and FHWA and AASHTO guidance are followed for evaluating
   bids to determine price reasonableness.

2. Establish internal controls to ensure that FLH Division personnel adhere to
   such policies and procedures to establish price reasonableness.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided FHWA with our draft report on August 27, 2014 and received its
formal response on September 26, 2014, which is included in its entirety in the
appendix to this report. In its response, FHWA stated that it partially concurred
with recommendation 1 and concurred with recommendation 2, as written. For
recommendation 1, FHWA plans to review and adopt relevant parts of its
guidance for its Federal-Aid highway program guidance as well as relevant parts
of AASHTO Transportation Officials’ guidance on acquisition best practices.
FHWA’s planned actions meet the intent of our recommendations. We consider
both recommendations resolved but open pending completion of the planned
actions, both of which FHWA intends to complete by April 30, 2015.
                                                                                  12


Also in its response, FHWA took exception with several points in our report. In
our view, however, the comments do not correctly reflect the content of our report.
Specifically:

FHWA states that we overly relied on the use of the Government cost estimate
(GCE), and that we suggested that certain contracts should have been cancelled
and re-competed solely on bids differing from the GCE. However, we did not rely
on GCEs as FHWA states in its response, but on the data recorded in the contract
files and presented as the basis for FLH’s price reasonableness determinations.
Moreover, neither our analysis nor recommendations imply that any of the
contracts we reviewed should have been cancelled and re-competed merely
because bids differed from the agency estimates. Instead, we point out in our
report that, based on FHWA’s and AASHTO’s best practices, performing some
additional analyses to determine the cause of such differences could be beneficial
to making fully informed award decisions.

FHWA also states that we did not take into account that according to the FAR,
adequate competition is a preferred method for determining price reasonableness.
However, we discuss in our report that while the FAR allows for the use of
“adequate competition” as a preferred method for determining price
reasonableness, the FAR’s definition of “adequate competition” includes more
than just receipt of at least two bids. It also includes, among other factors, making
a determination that there is no finding that the price of the otherwise successful
offeror is unreasonable. We acknowledge in our report that each contract we
reviewed received at least two bids. In addition, while the FAR establishes that
agencies should have “compelling” reasons for cancellations, it also enumerates a
variety of reasons that could be compelling, including a determination that
otherwise acceptable bids are unreasonable. Furthermore, as we also point out in
the report, the FAR allows for individual bids to be rejected—without cancelling
the entire competition—if they are found to be unreasonable.

Lastly, FHWA states that the best practices established by FHWA’s Federal-aid
program and AASHTO do not directly pertain to Federal contracting, and that the
contracts we reviewed “strictly complied” with the FAR. While we acknowledge
that these best practices are aimed at State audiences, they also provide greater
detail than the FAR provides for evaluating bids to determine whether they are
indeed reasonable. The FAR also states that contracting officers should take the
                                                                                                                    13


lead in encouraging business process innovations and ensuring that business
decisions are sound. 22

ACTIONS REQUIRED
We consider FHWA’s planned actions for recommendations 1 and 2 responsive,
and its target action dates are appropriate. Accordingly, we consider those
recommendations resolved but open pending completion of the planned actions.

We appreciate the courtesies and cooperation of DOT’s representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5225, or Tony Wysocki, Program Director, at (202) 493-0223.

                                                           #

cc: DOT Audit Liaison (M-1)
    FHWA Audit Liaison (HCFM)




22
   Per FAR 1.102-4(e), if a policy or procedure, or a particular strategy or practice, is in the best interest of the
Government but not specifically addressed in the FAR, or prohibited by law, regulation, or Executive order, acquisition
personnel should not assume it is prohibited. Rather, absence of direction should be interpreted as permitting
acquisition personnel to innovate and use sound business judgments that are consistent with law and within the limits of
their authority.
                                                                                                                 14


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit between April 2013 and August 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

Our audit objective was to determine whether FHWA’s policies, procedures, and
practices meet Federal requirements for ensuring price reasonableness for
fixed-price contracts.

To conduct our work, we analyzed data from Federal Procurement Data System-
Next Generation (FPDS-NG) to develop a universe and sample of FLH’s contracts
to review. We stratified the universe by FHWA office—Eastern Federal Lands,
Western Federal Lands, Central Federal Lands, and Office of Acquisitions and
Grant Management (OAM). Our audit universe of 37 FHWA fixed-price
contracts—whose ultimate contract values totaled $109 million—was based on
FPDS-NG data for the first two quarters of fiscal year 2013. Of the 37 contracts in
our universe, 29 were sealed bid and 6 were not sealed bid. From the stratified
universe, we selected a simple random sample of 18 contracts with an ultimate
contract value of $59 million—representing 54 percent of the universe amount.
Of the 18 contracts in our sample, we dropped 5 contracts from our review—2 that
OAM awarded, 2 that were not sealed bid, and 1 that was out of our audit scope.
The remaining 13 contracts—with an ultimate contract value of $52 million—
were sealed bid.

We also assessed the reliability of the FPDS-NG data by comparing the
procurement instrument identifier 23 field in FPDS-NG to the contract files we
reviewed during our site visits. We validated the completeness of the FPDS data
by comparing the contract numbers from FPDS to those in the contract files. We
found that the contract numbers of the files matched those identified in our sample
and determined that the data was reliable enough for our audit purposes.

Lastly, we tested FLH’s internal controls for determining price reasonableness by
conducting field visits and interviews to identify FLH’s practices for making price
reasonableness determinations. We compared those practices to (1) the FAR’s
requirements for conducting price analysis; (2) FHWA’s policies, procedures, and


23
  FAR 4.605 requires each agency that reports to FPDS-NG to assign a unique identifier, known as a procurement
instrument identifier, to every contract. In our review, that unique identifier was the contract number.

EXHIBIT A. Scope and Methodology
                                                                            15


guidance for evaluating bids; and (3) AASHTO’s recommended practices for
analyzing bids and estimating. Specifically, we:

• interviewed FHWA acquisition officials in Washington, D.C. to determine
  what price reasonableness policies and procedures were in place for FLH;
• conducted site visits at FHWA’s FLH Division Offices in Sterling, VA
  (Eastern Federal Lands); Lakewood, CO (Central Federal Lands); and
  Vancouver, WA (Western Federal Lands) to review contract files regarding
  price reasonableness determinations, price analysis, bid tabulations, and
  agency estimates. We also interviewed contract personnel regarding actual
  procedures and practices for determining price reasonableness. For file
  reviews, we developed and used a standardized checklist of FAR criteria to
  compare the contents of contract files to the FAR’s requirements for contract
  file documentation;
• conducted follow-up interviews with the contracting personnel responsible for
  administering our sample contracts to verify that we obtained all supporting
  documentation and explanations; and
• compared the practices that we observed to Federal requirements, FHWA’s
  policies, procedures, and guidance, and AASHTO’s recommended practices.




EXHIBIT A. Scope and Methodology
                                                                                                                                   16


EXHIBIT B. OVERVIEW OF DETERMINING PRICE
REASONABLENESS WHEN USING SEALED BIDDING UNDER
THE FAR AND FHWA GUIDANCE

 Agency receives bids and analyzes their prices                      Agency makes contract award
                                                                     decision
 Under the FAR,                                                       Under the FAR,

 •    Contracting officers must determine if potential bidders are     Unless agency finds a compelling
      responsible and whether bid prices are reasonable before              reason to reject all bids and cancel
      awarding contracts.                                                   the invitation for bids, it awards the
 •    The FAR sets forth seven price analysis techniques that               contract to lowest responsive bidder.
      may be used as guidelines for determining price                .................................................................
      reasonableness:                                                Agency heads may reject all bids if:
                                                                     •      all otherwise acceptable bids are at
 Compare bid prices to:                                                     unreasonable prices; or
  1. each other,*                                                    •      No responsive bids were submitted.
  2. historical prices,*
  3. competitive published prices,
                                                                     If an agency head has determined that
  4. independent Government estimates;
                                                                     an the invitation for bids should be
  5. prices obtained via market research.
                                                                     cancelled and that contracting by
                                                                     negotiation would be in the Government’s
 Agencies can also:
                                                                     interest, the contracting officer may
   6. Use parametric estimating methods/rough yardsticks to
                                                                     negotiate and award the contract without
       highlight significant inconsistencies that warrant additional
                                                                     issuing a new solicitation provided that:
       pricing inquiries; and
                                                                      •    all sealed bidders are given
   7. Analyze pricing information that bidders provide.
                                                                           opportunities to participate in
 *Preferred methods under the FAR.                                         negotiations; and
                                                                      •    the contract is awarded to the bidder
 According to FHWA’s:                                                      offering the lowest negotiated price.

 •   Contract Administration Manual, questions to consider           Also, contracting officers may reject any
     when evaluating bid prices:                                     individual bid if they determine that:
      o Was competition good?                                        •    the price is unreasonable;
      o Is the timing of the project award critical?
                                                                     •    line items prices are materially
      o Would re-advertisement result in higher
         or lower bids?                                                   unbalanced; or
      o Was there an error in the agency estimate?                   •    the bidder is not responsible.

 • Federal-aid Program guidance, if prices appear
   unreasonable, thorough analysis is encouraged before
   making the decision to either award a contract, or re-
   advertise the project. Factors to consider include, but are not
   limited to:
     o Distribution or range of bids
     o Identity and geographic location of the bidders
     o Project’s urgency
     o Potential for savings if the project is re-advertised

  Agency determines whether lowest bid price is
     reasonable, documents decision, and decides whether
     to award the contract or reject bids.

Source: OIG analysis of the FAR, including 9.104-1, 14.301(a), 14.404-1, 14.404-2, 14.408-2 and
15.404-1(b)(2), and FHWA guidance.

EXHIBIT B. Overview of Determining Price Reasonableness when Using Sealed
Bidding under the FAR and FHWA’s Guidance
                                                                     17




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                           Title

Tony Wysocki                                   Program Director

Aisha Evans                                    Project Manager

Paul Stark                                     Senior Analyst

Meredith Howell                                Senior Analyst

David Lahey                                    Senior Auditor

Stacie Seaborne                                Senior Analyst

Angela Hailes                                  Senior Analyst

Katy Novicky                                   Senior Analyst

Meghann Noon-Miller                            Auditor

Andrew James                                   Analyst

Petra Swartzlander                             Senior Statistician

Megha Joshipura                                Statistician

Fritz Swartzbaugh                              Associate Counsel

Susan Neill                                    Writer-Editor

Tom Denomme                                    Project Consultant




Exhibit C. Major Contributors to This Report
                                                                                       18



    APPENDIX. AGENCY COMMENTS


Subject:     INFORMATION: Management Comments to the Office             Date: September 26, 2014
             of Inspector General (OIG) Draft Report on Federal
             Highway Administration’s (FHWA) Federal Lands
             Highway’s Price Reasonableness Reviews

From:        Gregory G. Nadeau
             Acting Administrator


    All of the Federal Lands Highway Program (FLHP) contracts reviewed in this
    audit strictly complied with the Federal Acquisition Regulation (FAR), the
    principal set of rules and procedures governing the Federal government’s
    acquisition process to ensure price reasonableness. Each of the contracts reviewed
    resulted in fair and reasonable pricing for the Government and a sound value for
    the tax payers.

    The draft report’s overreliance on the use of the Government Cost Estimate
    (GCE), which is not one of the two preferred methodologies stipulated in the FAR
    to determine a fair and reasonable price, is concerning. While the use of the GCE
    is one of the permissible techniques identified in the FAR, it is a lagging indicator
    of market conditions and has limitations. The draft report suggests certain
    contracts included in the review should have been cancelled and re-competed
    solely on the basis of bids differing from the GCE. The draft report does not
    recognize or address the real and negative consequences of such actions –
    particularly since these contracts did not meet the FAR thresholds established for
    procurement cancellation and re-competition.

    • There was an extremely high level of competition among the contracts
      reviewed in this audit with an average of seven bids per competition. The FAR
      states that the Government may use various price analysis techniques and
      procedures to ensure a fair and reasonable price and lists examples of potential
      techniques. The FAR further states that when two or more offers are received,
      adequate competition through comparing prices among offerors is one of the
      preferred methods to establish price reasonableness. The FAR lists the second
      preferred method as comparing historical pricing. 1 In all samples reviewed by
      the OIG, the files had adequate competition, prices were recorded and


    1
        FAR 15.403-1 and FAR 15.404-1

    Appendix. Agency Comments
                                                                                   19


       reviewed to establish the lowest responsive bidder, and a comparison with
       historical pricing was performed.
• The FLHP adhered to the FAR in their price reasonableness determinations as
  noted above. There is no requirement in the FAR that Agencies compare the
  lowest bid to the GCE.
• The report suggests that some of the contracts reviewed should have been
  cancelled and re-competed based on the fact that the lowest responsible
  bidder’s price differed from the GCE. In actual practice, cancelling a
  solicitation after bid opening jeopardizes the competitive process and harms
  companies that submit bids in good faith as their pricing has been publically
  revealed to their competitors during the bid opening. Therefore, the FAR
  directs a very high threshold for cancelling an invitation for bid (IFB) after bid
  opening and states that the Government must award to the lowest responsible
  bidder, unless there is a compelling reason. 2 The lowest responsible bidder’s
  price differing from the GCE is not listed as a reason for cancelling an IFB. 3
• The report cites two publications as containing best practices for bid review
  that do not directly pertain to Federal contracting. In contrast, the FLHP
  contracts reviewed in this OIG audit were awarded in strict adherence to the
  FAR.


Based upon our review of the draft report, we partially concur with
recommendation 1. The FHWA will review and adopt relevant FHWA Federal-
Aid highway program guidance in addition to the American Association of State
Highway and Transportation Officials guidance, as appropriate, for leveraging
acquisition best practices. We intend to complete action on recommendation 1 by
April 30, 2015. We concur with recommendation 2 as written and intend to
complete action by April 30, 2015.

We appreciate this opportunity to offer additional perspective on the OIG draft
report. Please contact Arlan Finfrock, FHWA’s Chief Acquisition Officer, at
(202) 366-4232 with any questions or if the OIG would like to obtain additional
details about these comments.




2
    FAR 14.404-1(a)(1)
3
    FAR 15.404(c)

Appendix. Agency Comments
